Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    THE FOOD AND DRUG 

 ADMINISTRATION’S OVERSIGHT 

     OF CLINICAL TRIALS





                    Daniel R. Levinson

                     Inspector General 


                     September 2007

                     OEI-01-06-00160

               Office of Inspector General

                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
I N T R O D        U C T        I O N
Δ    E X E C U T I V E                                 S U M M A R Y


                    OBJECTIVE
                    1.	 To determine the extent to which the Food and Drug Administration
                        (FDA) conducted inspections of clinical trials from fiscal year
                        (FY) 2000 to FY 2005.

                    2.	 To assess FDA’s processes for inspecting clinical trials.


                    BACKGROUND
                    The Federal Food, Drug, and Cosmetic Act generally requires all new
                    drugs and medical devices (hereinafter referred to as investigational
                    products) to undergo clinical trials on human subjects to demonstrate
                    the safety and efficacy of these products before they are approved for
                    sale in the United States. The sponsors, clinical investigators, and
                    institutional review boards (IRBs) that conduct and oversee these trials
                    must comply with FDA regulations designed to protect the human
                    subjects participating in them. The Office of Inspector General (OIG)
                    received a congressional request to review FDA oversight of clinical
                    trials after a series of news articles highlighted vulnerabilities.

                    Three FDA centers regulate medical investigational products for human
                    use: the Center for Drug Evaluation and Research, the Center for
                    Biologics Evaluation and Research, and the Center for Devices and
                    Radiological Health. FDA’s Office of Regulatory Affairs (ORA) conducts
                    onsite bioresearch monitoring (BiMo) inspections of sponsors, clinical
                    investigators, and IRBs as assigned by the centers.

                    BiMo inspections are not required by Federal regulations; the centers
                    decide when to assign them. Inspections can result in one of three
                    classifications: no action indicated (NAI), voluntary action indicated
                    (VAI), or official action indicated (OAI). After the inspection, BiMo
                    investigators recommend a classification for the inspection, and the
                    assigning center reviews the inspection report and assigns a final
                    classification. Although FDA takes no additional action for inspections
                    classified as NAI, it may take additional action for VAI and OAI
                    inspections.

                    We used seven data sources for this study: BiMo inspections data; file
                    reviews of all inspections that BiMo investigators or a center classified
                    as OAI; an e-mail survey of BiMo investigators; interviews with FDA
                    officials; observations of BiMo inspections; analysis of the National



 OEI-01-06-00160    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   i
E X E C U T I V E                   S U           M M A R Y


                   Institutes of Health (NIH) clinical trial registry; and reviews of FDA
                   policies, procedures, and guidance documents.


                   FINDINGS
                   Data limitations inhibit FDA’s ability to effectively manage the BiMo
                   program. Because FDA does not maintain a clinical trial registry, it is
                   unable to identify all ongoing clinical trials and their associated trial sites.
                   Further, because FDA does not maintain an IRB registry, it is unable to
                   identify all IRBs. Even though FDA maintains six databases to track
                   BiMo inspections, none includes complete information needed to track all
                   such inspections. For example, ORA’s database does not include complete
                   information for inspection events that occur after it completes its
                   inspection. The center databases do not consistently track inspection
                   information.
                   Other factors hinder FDA’s ability to effectively manage the BiMo
                   program. Centers and ORA inconsistently classify OAI and NAI
                   inspections. FDA relies on voluntary compliance to correct violations of
                   regulatory significance. Uncertainty of timing and lack of coordination
                   impede FDA’s ability to conduct BiMo inspections. In addition, FDA
                   guidance and regulations do not reflect current clinical trials practices.
                   We estimate that FDA inspected 1 percent of clinical trial sites
                   during the fiscal year 2000–2005 period. FDA conducted 2,856 BiMo
                   inspections that required a clinical trial site visit during the
                   FY 2000–2005 period. Because FDA cannot identify the total number of
                   clinical trial sites, we used the NIH clinical trial registry to estimate the
                   proportion of clinical trial sites the BiMo inspections reached. The
                   centers conduct more inspections that verify clinical trial data than
                   inspections that focus on human subject protections. Seventy-five
                   percent of the BiMo inspections during the FY 2000–2005 period were
                   surveillance inspections, which generally target previously completed
                   trials and often focus on verifying the quality of clinical trial data. Also,
                   FDA inspected few IRBs, which offer considerable oversight of human
                   subject protections.


                   RECOMMENDATIONS
                   To improve the BiMo information systems and processes, FDA should
                   take the following actions:




 OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   ii
E X E C U T I V E                   S U           M M A R Y


                   Improve information systems and processes.
                   Develop a clinical trial database that includes all clinical trials. FDA should
                   develop a comprehensive internal database of clinical trials to more
                   effectively identify and target ongoing clinical trials for inspection.

                   Create an IRB registry. This registry would give FDA basic information
                   about IRBs that it now lacks. By identifying all IRBs overseeing clinical
                   trials, FDA could target IRBs more effectively for inspection.

                   Create a cross-center database that allows complete tracking of BiMo
                   inspections. A database that includes timely and complete information
                   about all BiMo inspections would help FDA better coordinate and track
                   inspections.

                   Establish a mechanism to provide feedback to BiMo investigators on their
                   inspection reports and findings. Improved feedback between the centers and
                   BiMo investigators could lead to a common understanding of the
                   regulations and guidelines that govern BiMo inspections.

                   Seek legal authority to provide oversight that reflects current clinical trial
                   practices. FDA should consider seeking additional authority that covers
                   all of the stakeholders in the management and conduct of clinical trials.
                   In particular, FDA could seek to expand its authority to include the
                   colleagues and subordinates of a clinical investigator if they participate
                   in the conduct of a clinical trial.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   FDA concurred with four of our five recommendations listed above.
                   FDA did not address our recommendation to establish a mechanism to
                   provide feedback to BiMo investigators on their inspection reports and
                   findings.

                   FDA pointed out that BiMo inspections make up only one part of its
                   efforts to ensure human subject protections, noting that it views its
                   protocol review before a clinical trial commences as the most important
                   step in protecting human subjects. We recognize the important role
                   that FDA’s protocol review plays in protecting human subjects. We
                   note, however, that this report addresses another important part of the
                   system for protecting human subjects: oversight of the trials once they
                   are actually underway.




 OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   iii
E X E C U T I V E                   S U           M M A R Y


                   The agency also highlighted the efforts of its Human Subject
                   Protection/Bioresearch Monitoring Council and emphasized the
                   importance of risk-based approaches to BiMo inspections.

                   Where appropriate, we made changes to the report based on FDA’s
                   technical comments.




 OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   iv
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                    Data limitations inhibit FDA’s ability to manage effectively . . . . 10 


                    Other factors hinder FDA’s ability to manage effectively . . . . . . . 13 


                    We estimate that FDA inspected 1 percent of clinical trials . . . . . 18 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 

                    Agency comments and Office of Inspector General response . . . . 24 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 

                    A: Methodology. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 


                    B: Agency comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34 

I N T R O D        U C T        I O N
Δ    I N T R O D U C T I O N


                    OBJECTIVE
                    1.	 To determine the extent to which the Food and Drug Administration
                        (FDA) conducted inspections of clinical trials from fiscal year
                        (FY) 2000 to FY 2005.

                    2.	 To assess FDA’s processes for inspecting clinical trials.


                    BACKGROUND
                    The Federal Food, Drug, and Cosmetic Act generally requires all new
                    drugs and medical devices (hereinafter referred to as investigational
                    products) to undergo clinical trials on human subjects to demonstrate
                    the safety and efficacy of these products before they are approved for
                    sale in the United States.1 2 FDA has promulgated regulations to
                    protect the rights, safety, and well-being of the human subjects who
                    participate in these trials. These regulations apply to the sponsors,
                    clinical investigators, and institutional review boards (IRBs) that
                    conduct or oversee clinical trials for investigational products. FDA
                    inspects clinical trials to determine whether each of these groups
                    complies with the relevant regulations.

                    The Office of Inspector General (OIG) received a congressional request
                    to review FDA’s oversight of clinical trials after a series of news articles
                    highlighted vulnerabilities.3 The series identified problems with FDA’s
                    oversight of clinical trials, including insufficient informed consent
                    procedures, inadequate training and certification requirements for
                    IRBs, limited Federal regulations, and FDA’s failure to enforce existing
                    regulations.
                    Clinical Trials
                    Sponsors. The person or entity responsible for developing and testing
                    an investigational product is the product’s sponsor. Sponsors of drug
                    and biological products must file an investigational new drug (IND)
                    application with FDA before they can begin clinical trials; device

                      1 In some instances devices do not go through a formal approval process but go to market
                    through a premarket notification and determination of substantial equivalence by FDA. In
                    these instances, clinical trials may not be necessary. See Federal Food, Drug, and Cosmetic
                    Act of 1938, P. L. No. 75-717, 52 Stat.1040 (1938) (amended 2004).
                    21 U.S.C. § 360(o).
                      2 21 U.S.C. §§ 355(i), 360(j).
                      3 David Evans, Mike Smith, Liz Willen, “Drug Industry Human Testing Masks Death,
                    Injury, Compliant FDA,” Bloomberg News, November 2, 2005.



 OEI-01-06-00160    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   1
I N T R O D        U C T        I O N


                    sponsors submit investigational device exemptions (IDE).4 INDs and
                    IDEs provide FDA with information on the study protocol, the
                    qualifications of trial personnel, and assurances that trials will protect
                    human subjects’ welfare, among other details.5 A sponsor may begin its
                    clinical trial 30 days after FDA receives an IND or IDE, provided that
                    the agency does not place the study on clinical hold.6
                    FDA regulations require sponsors to select qualified clinical
                    investigators to conduct the trials needed to bring an investigational
                    product to the market.7 A clinical trial generally involves many clinical
                    investigators working in multiple trial sites, including sites outside the
                    United States.

                    Sponsors must also ensure that proper monitoring occurs throughout
                    the clinical trial.8 In part, this means that sponsors must ensure that
                    clinical investigators comply with the relevant FDA regulations. Key
                    FDA regulations pertaining to clinical trials address informed consent
                    procedures, data management practices, and clinical trial oversight
                    processes.9
                    If the clinical trials demonstrate the investigational product to be safe
                    and effective, sponsors that wish to market a product in the United
                    States must submit a new product application to FDA.10 11 Provisions
                    within the Prescription Drug User Fee Act of 1992 (PDUFA) and the
                    Medical Device User Fee and Modernization Act of 2002 (MDUFMA)
                    require FDA to expedite the process for the review of product
                    applications.12 FDA reviews the clinical trial data and may choose to
                    inspect facilities as part of the application review process.13 If FDA


                      4 21 CFR § 312.20 (drugs and biologics); 21 CFR § 812.20 (medical devices). 

                      5 21 CFR § 312.23.            

                      6 21 CFR § 312.40 (drugs and biologics); 21 CFR § 812.30 (medical devices). 

                      7 21 CFR § 312.50 (drugs and biologics); 21 CFR § 812.40 (medical devices). 

                      8 Ibid. 

                      9 Ibid. See also FDA, “Compliance Program Guidance,” Chapter 48: Sponsors, Contract 

                    Research Organizations and Monitors Part 1—Background (February 2001). Available
                    online at http://www.fda.gov/ora/compliance_ref/bimo/7348_810/default.htm. Last accessed
                    on January 16, 2006.
                      10 The drug development and approval process may take several years. For more
                    information, see Congressional Research Service, “The U.S. Drug Approval Process: A
                    Primer,” June 2001.
                      11 21 CFR § 314.50 (drugs); 21 CFR § 601 (biologics); 21 CFR § 814.20 (devices). 

                      12 21 U.S.C. §§ 301, 379f(j). 

                      13 21 CFR § 314 (drugs); 21 CFR § 600.21 (biologics); 21 CFR § 814.44 (devices). 





 OEI-01-06-00160    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   2
I N T R O D        U C T        I O N


                    approves a new product, sponsors can market and sell it in the United
                    States.

                    Clinical investigators. Clinical investigators’ responsibilities include
                    recruiting subjects, supervising clinical studies of the investigational
                    product, and reporting study results to the sponsor.14 Before they begin
                    drug and biological clinical trials, clinical investigators must sign an
                    FDA Form-1572 (Statement of Investigator).15 By signing this form,
                    investigators agree to follow a research protocol that the sponsor
                    provides to FDA, report any unexpected adverse outcomes to sponsors
                    and IRBs, obtain informed consent from all subjects participating in the
                    research, and comply with all relevant FDA regulations.16
                    Institutional Review Boards. IRBs are committees that an institution
                    designates to oversee clinical investigators and their research.17 IRBs
                    are often affiliated with hospitals and academic medical centers, but
                    they also exist in managed care organizations and Government agencies
                    and as for-profit entities that are independent of the institution in
                    which the research takes place. IRBs generally oversee many and
                    varied clinical trials.18
                    IRBs are intended to ensure that clinical investigators take appropriate
                    steps to protect the rights and welfare of human subjects. All clinical
                    trial research involving human subjects must be approved by an IRB.19
                    Once an IRB approves a clinical trial, Federal regulations require it to
                    reevaluate the trial at least once a year.20
                    Food and Drug Administration Oversight of Clinical Trials
                    Three centers within FDA individually regulate different types of
                    medical investigational products for human use. These centers are the
                    Center for Drug Evaluation and Research (CDER), the Center for
                    Biologics Evaluation and Research (CBER), and the Center for Devices



                      14 21 CFR § 312.60 (drugs and biologics); 21 CFR § 812.100 (devices). 

                      15 Although the Center for Devices and Radiological Health does not require a Form FDA 

                    1572, it does require an investigator agreement. See 21 CFR § 812.43(c) (devices);
                    21 CFR § 312.53 (drugs and biologics).
                      16 21 CFR § 50.312.
                      17 21 CFR § 56.102.
                      18 Larger IRBs may oversee more than 500 trials in a given year. See Institutional
                    Review Boards Registration Requirements, 69 Fed. Reg. 40,556 (July 6, 2004).
                      19 21 CFR § 56.109(a).
                      20 21 CFR § 56.109(f).




 OEI-01-06-00160    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   3
I N T R O D        U C T        I O N


                    and Radiological Health (CDRH).21 CDER and CBER share regulations
                    for the development of investigational products; CDRH has its own
                    regulations.22
                    The centers use onsite inspections to ensure that clinical investigators,
                    sponsors, and IRBs comply with FDA regulations while developing
                    investigational products. In 1977, FDA established the Bioresearch
                    Monitoring Program (BiMo) to develop cross-center guidelines for these
                    inspections of clinical investigators, sponsors, and IRBs (hereinafter
                    referred to as BiMo inspections).23 BiMo’s objective, as it relates to
                    clinical trials, is to “assure the quality and integrity of data submitted
                    to FDA to demonstrate the safety and efficacy of regulated products,
                    and to determine that human rights and the welfare of human and
                    animal research subjects are adequately protected.”24 The “Compliance
                    Program Guidance Manual” contains the current guidelines for BiMo
                    inspections.

                    FDA’s Office of Regulatory Affairs (ORA) conducts all onsite inspection
                    activities for the agency. ORA employs about 1,300 investigators who
                    conduct a total of 22,000 inspections annually. About 200 investigators
                    (hereinafter referred to as BiMo investigators) have received specialized
                    training to conduct BiMo inspections and have conducted these
                    inspections in recent years.25 BiMo investigators work out of all 19 of
                    ORA’s district offices.

                    Types of Bioresearch Monitoring inspections. The centers assign two
                    general types of BiMo inspections: surveillance inspections and directed
                    inspections. Most surveillance inspections target concluded clinical
                    trials and retrospectively review compliance with FDA regulations.
                    Many directed inspections target trials that are still treating human
                    subjects (ongoing trials). The centers can assign surveillance and
                    directed inspections to ORA at any point during the development of an


                      21 FDA’s Center for Veterinary Medicine and Center for Food Safety and Applied
                    Nutrition oversee investigational products as well, but are outside the scope of our
                    evaluation.
                      22 21 CFR § 312 (drugs and biologics); 21 CFR § 812 (devices). 

                      23 21 U.S.C. §§ 355, 360(i). 

                      24 FDA, “Bioresearch Monitoring Program Coordination Background.” Available online 

                    at: http://www.fda.gov/ora/compliance_ref/bimo/background.html. Last accessed on
                    February 5, 2007.
                       25 Although some investigators conduct BiMo inspections exclusively, most investigators
                    also conduct other types of inspections for FDA.



 OEI-01-06-00160    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   4
I N T R O D        U C T        I O N


                    investigational product. Although FDA has the authority to conduct
                    surveillance and directed BiMo inspections, it is not required to do so.

                    Surveillance inspections are generally routine inspections that the
                    centers assign to ORA to verify that a clinical investigator, a sponsor, or
                    an IRB complied with FDA regulations during clinical trials for an
                    investigational product. Data verification inspections are a principal
                    type of surveillance inspection. Data verification inspections usually
                    occur 2 to 3 years after the clinical trials for an investigational product
                    conclude and focus on verifying the clinical trial data that a sponsor
                    submitted to support a new product application.
                    The centers assign directed inspections to ORA for a variety of reasons,
                    including complaints about the conduct of a clinical trial from an
                    interested party, problems noted during previous inspections, or
                    problems identified at similar sites. Other factors may also lead the
                    centers to assign a directed inspection of a clinical trial, such as an
                    unusually high number of subjects enrolled at one site under one
                    clinical investigator or a treatment that may be considered higher risk.
                    Directed inspections that target ongoing clinical trials allow the centers
                    and BiMo investigators to review the conduct of a clinical trial and
                    advise where corrective action may be needed while the trial is still
                    ongoing, thereby offering further human subject protections.

                    Bioresearch Monitoring inspection process. ORA’s BiMo investigators
                    conduct BiMo inspections according to the “Compliance Program
                    Guidance Manual.” Also, staff at the center that assigned a BiMo
                    inspection may issue additional instructions for the BiMo investigator.
                    The manual’s instructions vary based on the type of inspection
                    (i.e., clinical investigator, sponsor, or IRB).26 If a BiMo investigator
                    identifies violations of FDA regulations, he/she records them on a Form
                    FDA-483 (Inspectional Observations Report). After the inspection, the
                    BiMo investigator sends the assigning center a copy of the FDA-483 and
                    an Establishment Inspection Report (EIR), which includes background




                      26 FDA, “Compliance Program Guidance Manual,” Chapter 48.809: Institutional Review
                    Board (September 1997); Chapter 48.810: Bioresearch Monitoring—Sponsors, Contract
                    Research Organizations, and Monitors (February 2001); Chapter 48.111: Clinical
                    Investigators (September 2000).



 OEI-01-06-00160    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   5
I N T R O D        U C T        I O N


                    information and copies of all inspection documents. In the EIR, the
                    BiMo investigator recommends a classification for the inspection.27
                    Inspection classifications and actions taken. Staff at the assigning center
                    classify each inspection based on the EIR and other information they
                    have about the investigational product. BiMo inspections can result in
                    one of three classifications: no action indicated (NAI), voluntary action
                    indicated (VAI), or official action indicated (OAI). An NAI classification
                    signifies few or no violations of FDA regulations. Generally, FDA takes
                    no action in these cases. An inspection receives a VAI classification and
                    an untitled letter when the violations are serious enough to record, but
                    the center does not believe the violations cross “the threshold of
                    regulatory significance.”28 FDA does not require the clinical
                    investigators, sponsors, or IRBs that receive VAI classifications to
                    address the violations found during the inspection.

                    Centers classify inspections as OAI and issue warning letters to the
                    inspected entity when investigators find violations of “regulatory
                    significance.”29 FDA considers warning letters an important tool in
                    ensuring voluntary compliance. If the inspection subject does not take
                    corrective action to address violations cited in the warning letter, FDA
                    may take enforcement actions, such as disqualifying data or barring a
                    clinical investigator from conducting research. Warning letters and
                    enforcement actions are publicly available on FDA’s Web site.

                    FDA requests that the inspected entity respond to the violations listed
                    in a warning letter by sending a justification or a corrective action plan
                    to the assigning center. FDA’s “Regulatory Procedure Manual” states,
                    “If necessary to ensure that corrections have been implemented,
                    follow-up inspections should be conducted promptly after the agreed
                    upon date of completion of the promised corrections.”30
                    Recent Food and Drug Administration Initiatives
                    Recently, FDA has taken steps to improve its BiMo inspection
                    processes. In 2004, it created the BiMo Steering Committee to review

                       27 Although most recommended classifications made by BiMo investigators are classified
                    as no action indicated, voluntary action indicated, or official action indicated, BiMo
                    investigators may also choose not to recommend a classification.
                      28 Ibid., p. 4-27.
                      29 The centers are required to get the concurrence of FDA’s Office of Chief Counsel for all
                    warning and untitled letters. See FDA, “Regulatory Procedures Manual,” Chapter 4:
                    Advisory Actions, p. 4-26, March 2007.
                      30 Ibid., p. 4-11.




 OEI-01-06-00160    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   6
I N T R O D        U C T        I O N


                    BiMo processes and make recommendations for improving them.
                    During the course of our study, FDA renamed that committee the
                    Human Subject Protection/Bioresearch Monitoring Council. In 2006,
                    the committee issued new guidance on clinical trial conduct and policy.31
                    Prior Office of Inspector General Reports
                    Previous OIG reports documented weaknesses in the oversight that
                    FDA and IRBs provide for clinical trials. In 1998, a series of reports
                    concluded that IRBs lacked the time and the expertise to sufficiently
                    monitor the research taking place under their jurisdiction.32 The
                    reports found that IRBs often conducted minimal review of studies after
                    the initial approval of the research. Additionally, IRBs provided little
                    training for investigators and board members.

                    A 2000 report documented weaknesses in clinical trial oversight. The
                    report found that data integrity concerns, more than human subject
                    protection, drove FDA’s oversight of clinical investigators and that the
                    BiMo program lacked clear and specific guidelines.33


                    METHODOLOGY
                    Scope
                    Our study focused on BiMo inspections of sponsors, clinical
                    investigators, and IRBs in clinical trials from FY 2000 through FY 2005.
                    We included all of the BiMo inspections conducted for CBER, CDER,
                    and CDRH that are listed in FDA’s inspections databases for this 6-year
                    period.
                    Data Sources and Analysis
                    We used seven data sources for this study. See Appendix A for a
                    detailed methodology.


                      31 In 2006, FDA issued the following new guidance: Draft Guidance: Process for
                    Handling Referrals to FDA Under 21 CFR § 50.54; Additional Safeguards for Children in
                    Clinical Investigations, May 2006; Guidance for Industry: Using a Centralized IRB Process
                    in Multicenter Clinical Trials, March 2006; Guidance for Clinical Trial Sponsors:
                    Establishment and Operation of Clinical Trial Data Monitoring Committees, March 2006;
                    Information Sheet Guidances for IRBs, Clinical Investigators, and Sponsors, January 2006.
                      32 Department of Health and Human Services, OIG, “Institutional Review Boards: A
                    Time for Reform,” OEI-01-97-00193, June 1998; OIG, “Low-Volume Institutional Review
                    Boards,” OEI-01-97-00194, October 1998; “Institutional Review Boards: Their Role in
                    Reviewing Approved Research,” OEI-01-97-00190, June 1998.
                      33 Department of Health and Human Services, OIG, “FDA Oversight of Clinical
                    Investigators,” OEI-05-99-00350, June 2000.



 OEI-01-06-00160    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   7
I N T R O D        U C T        I O N


                    Food and Drug Administration’s Bioresearch Monitoring inspections data.
                    We analyzed FDA’s BiMo inspections data to evaluate how FDA tracks
                    and manages BiMo inspections. We also calculated the number and
                    type of inspections FDA conducts. We used data from six FDA
                    databases for BiMo inspections. The three centers maintain separate
                    databases to track BiMo inspections: two databases each for CBER and
                    CDER and one for CDRH. ORA maintains the Field Accomplishment
                    and Compliance Tracking System (FACTS).

                    From each database, we analyzed the records for BiMo inspections of
                    sponsors, clinical investigators, and IRBs that BiMo investigators
                    conducted for the three centers during the FY 2000–2005 period. We
                    excluded laboratory and bioequivalence inspections from our analysis.

                    File review. Using the FDA databases, we identified and reviewed all
                    BiMo inspections for which the BiMo investigator recommended OAI or
                    a center classified as OAI in FY 2000–2005. We reviewed 668 files,
                    including 99 CBER inspection files, 248 CDER inspection files, and
                    321 CDRH inspection files.

                    E-mail survey of Bioresearch Monitoring investigators. We surveyed BiMo
                    investigators about their experiences with FDA guidance, classification
                    recommendations, inspection followup with the assigning centers, and
                    challenges conducting BiMo inspections. We received completed
                    surveys from 76 percent of the BiMo investigators (170 out of 223).

                    Interviews with Food and Drug Administration officials. We conducted
                    telephone interviews with all 19 ORA district directors and supervisors
                    of investigation branches (hereinafter referred to as supervisors). The
                    interviews focused on the supervisors’ experiences with the supervisory
                    role, interactions with the BiMo investigators they supervise,
                    interactions with the assigning centers, classification recommendations,
                    and challenges in supervising BiMo inspections. We also interviewed
                    senior FDA officials in the agency’s headquarters and at each center.

                    Observation of Bioresearch Monitoring inspections. We observed the
                    process that BiMo investigators followed, as well as the interactions
                    between the investigator(s) and the inspection subject(s). We observed
                    two clinical investigator inspections and one IRB inspection.

                    Clinical trials registry site estimate. From the population of trials on the
                    National Institutes of Health’s (NIH) clinical trials registry as of
                    February 2007, we selected a stratified random sample of 150 trials.
                    Because the registry is separated by phase of the trial, the three strata


 OEI-01-06-00160    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   8
I N T R O D        U C T        I O N


                    used for the sample were Phase I, Phase II, and Phase III of the clinical
                    trial. We excluded 43 of the sampled trials and the final sample size to
                    estimate that the number of trial sites was 107. (See Appendix A, Table
                    7, for our sample design.)

                    Review of Food and Drug Administration regulations, guidance, policies,
                    and procedures documents. We obtained and reviewed all relevant FDA
                    regulations, guidance, policies, and procedures documents for
                    conducting BiMo inspections.
                    Standards
                    We conducted this review in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-01-06-00160    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   9
Δ   F I N D I N G S



      Data limitations inhibit FDA’s ability to           FDA relies on BiMo inspections as
       effectively manage the BiMo program                a principal mechanism for
                                                          overseeing clinical trials after it
                  reviews the protocol. BiMo inspections help to ensure the quality and
                  integrity of clinical trial data, and to determine whether sponsors,
                  clinical investigators, and IRBs are complying with regulations that
                  protect human subjects while they are enrolled in clinical trials.
                  FDA lacks a complete clinical trial registry
                  Because FDA does not maintain a clinical trial registry, it is unable to
                  indentify all ongoing clinical trials and their associated trial sites.
                  Limited clinical trials that are regulated by FDA can be found on a
                  clinical trial registry run by NIH.34 Included within this data bank is
                  information on FDA-regulated studies to treat serious or
                  life-threatening diseases and conditions. Sponsors are not required to
                  submit information on any other type of clinical trials that FDA
                  regulates.
                  FDA lacks an IRB registry
                  Because FDA does not maintain an IRB registry, it is unable to identify
                  all IRBs. IRBs are important because their primary purpose is to
                  ensure that clinical investigators take appropriate steps to protect the
                  rights and welfare of human subjects. BiMo inspections of IRBs offer
                  the centers considerable oversight of human subject protections.
                  Because IRBs usually oversee many and varied clinical trials, the
                  centers can review numerous trials across the centers with each BiMo
                  inspection of IRBs.

                  The Office of Human Research Protections (OHRP) oversees all
                  federally sponsored research that includes human subjects.35 OHRP
                  maintains a database consisting of all IRBs that oversee this research.
                  Although the OHRP database likely contains many IRBs that oversee
                  some FDA-regulated clinical trials, it does not contain IRBs that oversee
                  clinical trials regulated exclusively by FDA.


                    34 Section 113 of the 1997 Food and Drug Administration Modernization Act directs the
                  Secretary of the Department of Health and Human Services to act through NIH to establish
                  and operate a databank of information on clinical trials for drugs to treat serious or life-
                  threatening diseases or conditions. 42 U.S.C. § 282(j)(3)(A).
                    35 OHRP oversees research that is conducted or supported by HHS. See 45 CFR Part 46.




OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   10
F   I N D I N G        S


                      FDA has acknowledged the importance of creating an IRB registry and
                      published a proposed rule in July 2004 for the creation of one.36
                      According to FDA, the benefits of such a registry would include being
                      able to identify IRBs that review clinical trials regulated by FDA,
                      having a complete list of IRBs for educational and outreach purposes,
                      and being able to easily identify IRBs for inspection.37
                      No FDA database includes complete information for all BiMo inspections,
                      hindering FDA’s ability to track BiMo inspections
                      FDA maintains six databases to track BiMo inspections. Although
                      ORA’s database, FACTS, includes information on all BiMo inspections,
                      it does not consistently include information about inspection-related
                      events that occur after an investigator submits an inspection report to
                      the centers. For example, 48 percent of BiMo inspection records in
                      FACTS (2,557 out of 5,312 records during the FY 2000–2005 period)
                      lack the centers’ final classifications. Because of these omissions, FDA
                      cannot use FACTS to track inspections from assignment through a
                      center’s final action.

                      Tracking BiMo inspections using data from the centers is challenging
                      because of the number of databases involved and their inconsistencies.
                      The three centers used five separate databases to track BiMo inspection
                      data in the FY 2000–2005 period.38
                      The center databases do not uniformly track inspections. First, each
                      database contains different information about BiMo inspections.
                      Second, when the centers track similar information, they do not do so in
                      the same way. For example, each database uses different categories to
                      identify the reason a center initiated an inspection.39 (See Table 1 on
                      the next page.) These categories are difficult to translate across
                      databases. For example, FACTS and one of CBER’s databases indicate
                      whether an inspection was based on a complaint. However, the other
                      databases combine complaint-based inspections with other types of
                      inspections, which means that FDA cannot identify which inspections
                      were prompted by complaints for all centers. Also, the databases define
                      different types of inspections as surveillance and as directed. FDA



                        36 Institutional Review Boards Registration Requirements, 69 FR 40,556 (July 6, 2004). 

                        37 Ibid., 40,557. 

                        38 CBER and CDER maintain two databases each to track inspections. 

                        39 None of the databases indicates whether an inspected trial was completed or ongoing. 





    OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   11
F   I N D I N G             S


                           cannot use these databases to track inspections across centers unless it
                           controls for all of these discrepancies.


        Table 1: Categories Center and ORA Databases Use To Track Reason for Inspection
       Database            Inspections Included                      Category
                           All BiMo inspections ORA                   • Complaint (for cause, based on a complaint)
                           conducts                                   • Compliance (followup to previous violations)
       ORA                                                            • Surveillance (routine inspections that are not based on
       FACTS                                                            preexisting information about a firm; includes data integrity
                                                                                     2
                                                                        inspections)

                           CBER's IRB inspections                    • Text field (most entries in this field do not indicate reason for
       CBER                                                             inspection)
       IRB
                           CBER's clinical                           • Complaint 

       CBER                investigator and sponsor 
                • Surveillance (site selected because of high risk; includes blood,
                                                                                                        2
                           inspections                                  cell, gene, vaccine, and other)
       CISM1

                           Completed inspections of                  • Data audit (most are based on new product application)
                           trials for drug products                  • For cause (based on prior problems complaint)
       CDER
            3
       COMIS

                                                                                                                                4
                           CDER inspections                          •    For cause (based on previous problems or complaint)
                           starting in FY 2004 or                    •    Routine data audit (based on a new product application)
       CDER                later                                     •    Information gathering
       DSI4                                                                            2
                                                                     •    Surveillance


                           All CDRH BiMo                             •    Routine 

                           inspections of IRBs, 
                    •    For cause 

                           clinical investigators, and 
             •    Directed 

                           sponsors 
                                •    Vulnerable population
       CDRH                                                          •    Probability sampling
                                                                     •    Field initiated
       database
                                                                     •    Center initiated
                                                                     •    Expedited review
                                                                                        2
                                                                     •    Surveillance
                                                                     •    Followup inspection after OAI inspection
       1
        CISM is clinical investigator, sponsor, and monitor.

       2
        The databases define surveillance differently. 

       3
         COMIS is the Center Office Management Information System. 

       4
        DSI is the Division of Scientific Investigations. In the CDER DSI database, inspections can be more than one type. 

       Source: OIG analysis of ORA, CBER, CDER, and CDRH data, 2006.




                           The five center databases do not uniformly track other important
                           inspection-related data, such as (1) whether the inspection targets an
                           ongoing or completed clinical trial, (2) ORA’s recommended
                           classification, and (3) follow-up inspection information.




    OEI-01-06-00160        THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS                12
     F   I N D I N G                 S



    Other factors hinder FDA’s ability to effectively
                        manage the BiMo program


                                    Centers and ORA inconsistently classify OAI and NAI inspections
                                    According to FY 2000–2005 CDER and CDRH data, these centers often
                                    disagreed when ORA recommended an OAI classification, the most
                                    serious classification category.40 (See Table 2.) During this 6-year
                                    period, CDER revised 68 percent of ORA’s OAI recommendations and
                                    CDRH revised 23 percent of ORA’s OAI recommendations. The centers
                                    reclassified most of these inspections to VAI, a classification that
                                    neither requires the inspected entity to formally address violations the
                                    center identified nor makes the classification publicly available.

                                    The centers do not systematically track their reasons for revising ORA’s
                                    recommended classifications. However, our review of 668 FDA
                                    inspection files identified two key reasons for changing OAI
                                    classifications to VAI. The most common reasons were that the center,
                                    in conjunction with an Office of Chief Counsel review, determined that
                                    the violations were not serious enough to warrant a warning letter and
                                    therefore an OAI classification, and that the inspection subject promised
                                    corrective actions.




Table 2: CDER and CDRH Agreement With ORA Recommended Classifications, FY 2000–2005

                        Percentage of All                 Percentage of OAI                                      Percentage of VAI             Percentage of NAI
Center                 Recommendations               Recommendations Center                                Recommendations Center             Recommendations
                          Center Revised                           Revised                                                Revised                Center Revised

CDER                     14% (303 of 2,090)                            68% (133 of 195)                                    2% (25 of 1,328)      26% (145 of 567)

CDRH                      13% (193 of 1,506)                             23% (62 of 271)                                     7% (47 of 688)       15% (84 of 547)

Source: OIG analysis of CDER and CDRH data, 2006.


                                    CDER and CDRH also revised some of ORA’s NAI recommendations. In
                                    other words, center reviewers sometimes identified violations when a
                                    BiMo investigator found no significant violations at the inspection site.
                                    CDER reclassified 26 percent of the inspections that ORA identified as


                                       40 We could not conduct this analysis for CBER because it does not record ORA’s
                                    recommended classification.



         OEI-01-06-00160            THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS                    13
F   I N D I N G 
S


                      NAI. CDRH reclassified 15 percent of the inspections that ORA
                      identified as NAI.

                      These reclassifications suggest that ORA and the centers sometimes
                      interpret the regulations and guidance for BiMo inspection
                      classifications differently. Although the centers ultimately classify
                      inspections, they rely on BiMo investigators to identify violations at the
                      inspection site and collect evidence to support inspection classifications.
                      If BiMo investigators interpret the regulations and guidelines
                      differently than center reviewers do, they may miss evidence to support
                      an OAI classification when one would be appropriate. Conversely, BiMo
                      investigators may spend time gathering evidence to support an OAI
                      classification that the center does not support.

                      BiMo supervisors and investigators reported that a lack of feedback
                      from the centers and inadequate training may contribute to the
                      differences in interpreting inspection classifications. Eighteen of
                      nineteen BiMo supervisors we spoke with stated that the centers rarely
                      or never provide feedback on the inspection reports that the districts
                      submit to the centers. Further, 19 percent of the BiMo investigators we
                      surveyed (32 of 170) responded that they would like more information
                      on the centers’ final classifications or feedback on their
                      inspection-related performance.
                      FDA relies on voluntary compliance to correct violations of regulatory
                      significance
                      The centers send warning letters for 70 percent of inspections classified
                      as OAI. The centers can respond to OAI inspections by issuing an
                      untitled letter, issuing a warning letter, disqualifying a clinical
                      investigator, or disqualifying data gathered in the clinical trial. Our
                      analysis of center data shows that the centers chose to respond to
                      70 percent of inspections they classified as OAI during the
                      FY 2000–2005 period by issuing warning letters. (See Table 3 on the
                      next page.) The centers’ next most common response to OAIs was
                      untitled letters, which they sent for 16 percent of OAI inspections. Less
                      frequently, the centers took more formal actions, including initiating
                      disqualification of inspection subjects or disqualifying data from clinical
                      trials.

                      Warning letters and untitled letters rely on voluntary compliance, so
                      FDA must reinspect individuals who receive these letters to ensure that
                      they do not repeat violations in future clinical research. If the centers
                      do not track the response to warning letters and untitled letters, they

    OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   14
 F    I N D I N G               S


                               cannot ensure that voluntary compliance occurs. According to FDA’s
                               “Regulatory Procedures Manual,” “Warning Letters are issued only for
                               violations of regulatory significance. Significant violations are those
                               violations that may lead to enforcement action if not promptly and
                               adequately corrected. A Warning Letter is the agency’s principal means
                               of achieving prompt voluntary compliance with the Federal Food, Drug,
                               and Cosmetic Act.”41



Table 3: Centers' Official Actions for BiMo Inspections Classified as OAI

                                                                                             Percentage of
                        Percentage of                 Percentage of                                                             Percentage of
                                                                                        OAIs That Resulted
Center             OAIs That Resulted            OAIs That Resulted                                                       OAIs That Resulted      Unknown Action
                                                                                       in a Disqualification
                   in a Warning Letter          in an Untitled Letter                                                     in Disqualified Data
                                                                                                      Letter

CBER                      82% (55 of 67)                     6% (4 of 67)                           12% (8 of 67)                  0% (0 of 67)       0% (0 of 67)

CDER                      57% (38 of 67)                 16% (11 of 67)                           18% (12 of 67)                   2% (1 of 67)       8% (5 of 67)

CDRH                   71% (151 of 214)                20% (42 of 214)                              3% (6 of 214)                 1% (1 of 214)     7% (14 of 214)

          Total        70% (244 of 348)               16% (57 of 348)                            8% (26 of 348)                   1% (2 of 348)     6% (19 of 348)

Source: OIG analysis of CDER, CDRH, and CBER inspection files, 2006.




                               Although CBER and CDER fail to track inspection followup, CDRH
                               data show that that center conducts few follow-up inspections. Center
                               databases fail to track whether the center conducted a followup to an
                               inspection classified as VAI or OAI. CDRH’s database indicates
                               whether an inspection was initiated as a followup to a prior violative
                               inspection. However, the database does not link the followup inspection
                               to the violative inspection. Nor does it indicate in the record for the
                               violative inspection that followup occurred. CDRH data show that the
                               center conducted 3 follow-up inspections for every 100 inspections
                               classified as OAI or VAI in the FY 2000–2005 period (36 follow-up
                               inspections for 1,048 inspections classified as OAI and VAI).




                                  41 FDA, “Regulatory Procedures Manual,” Warning Letter Procedures, p. 4-1-1, March
                               2007. Available online at http://www.fda.gov/ora/compliance_ref/rpm. Last accessed
                               April 9, 2007.



     OEI-01-06-00160           THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS                     15
F   I N D I N G        S


                      Uncertainty and lack of coordination impede FDA’s ability to conduct BiMo
                      inspections
                      In interviews, center and ORA staff reported that inspections triggered
                      by new product applications affect the conduct and timing of other
                      inspections. The centers cannot predict how many new product
                      applications they will receive each year and therefore cannot plan for
                      the inspections that these applications trigger. At the beginning of each
                      fiscal year, the centers plan and budget for BiMo inspections. During
                      the year, the centers also receive new product applications, which
                      generate BiMo inspection assignments with short due dates because of
                      the overall performance goals of PDUFA and MDUFMA.42 Assignments
                      based on new product applications are usually retrospective reviews
                      that focus on verifying clinical trial data used in the application. These
                      assignments generally take priority over all other BiMo inspections.
                      Because each center has a set budget for all inspections, an unexpected
                      rise in new product applications may mean that the ORA districts have
                      more inspections overall and more inspections with short due dates
                      than they originally planned.

                      Because of the uncertainties of timing and prioritization involved with
                      BiMo inspections, districts sometimes must delay some of the other
                      inspections that ORA conducts, particularly those with later due dates.
                      In fact, 11 of 19 district supervisors we interviewed stated that
                      assignments for inspections related to marketing applications create
                      challenges for managing resources. Staff in five district offices reported
                      asking the centers for additional time to complete BiMo inspections; two
                      offices estimated that they request extensions for about 20 percent of
                      BiMo assignments. Staff in four other districts reported that they have
                      to cancel other inspections when they have too many unexpected BiMo
                      assignments.

                      Additionally, the centers generally fail to coordinate assignments with
                      one another or the districts. When asked if they faced any challenges
                      conducting BiMo inspections, staff from 7 of the 19 district offices
                      reported that lack of planning and coordination by the centers created
                      challenges for the district. For example, staff in a district that oversees


                         42 PDUFA requires pharmaceutical companies to pay fees to FDA when submitting
                      Preapproval Marketing Applications and New Drug Applications. These fees are dedicated
                      to expediting the review of product applications for CDER and CBER. MDUFMA has the
                      same requirement for device applications. The BiMo inspection serves as one step of the
                      evaluation process. 21 U.S.C. §§ 379g(4), 379j.



    OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   16
F   I N D I N G 
S


                      a large geographic area reported that inspection assignments for distant
                      sites would be more manageable if they could combine multiple
                      inspections in a single trip. However, this is not feasible without
                      coordinating across the assigning centers.

                      Failure to coordinate BiMo assignments across centers may also impede
                      BiMo Steering Committee goals. In interviews, BiMo Steering
                      Committee members reported that they want to increase the number of
                      inspections of ongoing trials and inspections that focus on high-risk
                      sites. One committee member we interviewed told us that the current
                      system, in which each center independently issues assignments and
                      tracks data, does not allow for the timely coordination necessary to
                      target high-risk and ongoing inspections across centers.
                      FDA guidance and regulations do not reflect current clinical trial practices
                      According to interviews with center officials and ORA supervisors,
                      FDA’s guidance and regulations for clinical trials have fallen behind
                      industry practices. FDA officials reported that when the agency
                      developed clinical trial regulations, a single investigator at a single site
                      ran each clinical trial. Since then, clinical trials have grown
                      increasingly complex. Trials are larger and involve multiple sites
                      within and outside the United States.43
                      FDA officials told us that clinical investigators frequently delegate tasks
                      that include direct care to human subjects to colleagues or subordinates.
                      Current FDA regulations do not address colleagues or subordinates.
                      When FDA conducts an inspection and finds significant deficiencies
                      related to individuals other than the clinical investigator, the agency
                      may only take action against the clinical investigator.

                      Finally, although sponsors increasingly conduct clinical trials outside
                      the United States, FDA authority over foreign trials remains limited.
                      For example, one center official estimated that 20 to 25 percent of the
                      trials for products that FDA oversees occur outside the United States.
                      According to the official, centers are often unaware that foreign trials


                        43 Regarding the increasingly complex management structures of clinical trials, see
                      Department of Health and Human Services, OIG, “The Globalization of Clinical Trials:
                      A Growing Challenge in Protecting Human Subjects,” OEI-01-00-00190, September 2001.
                      See also Iain M. Cockburn, “The Changing Structure of the Pharmaceutical Industry,”
                      Health Affairs, 23(1) pp. 10–22, 2004; and R. A. Rettig, “The Industrialization of Clinical
                      Research,” Health Affairs, 19(2), pp. 129–146, 2000. Regarding the growing size and
                      complexity of clinical trials, see Institute of Medicine, “The Future of Drug Safety:
                      Promoting and Protecting the Health of the Public,” Chapters 1 and 2, 2006.



    OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   17
F   I N D I N G        S


                      have taken place because FDA’s investigational product regulations
                      generally do not apply outside the United States. When ORA does
                      inspect foreign clinical trials and finds violations, the centers can only
                      disqualify data from consideration in a new product application.



                 We estimate that FDA inspected                As previously noted, FDA lacks a
                                                               complete database that includes
         1 percent of clinical trial sites during the
                                                               information on all BiMo
                      fiscal year 2000-2005 period
                                                               inspections. However, FDA also
                      lacks registries that contain complete clinical trial and IRB information.
                      Failure to track all clinical trials and IRBs limits the centers’ ability to
                      oversee trials through BiMo inspections. First, the centers cannot
                      assign BiMo inspections of trials and IRBs that they cannot identify.
                      Second, the centers cannot identify the percentage of trials and IRBs
                      that BiMo inspections reach. To identify the percentage of trials and
                      IRBs that BiMo inspections reached during the FY 2000–2005 period,
                      we used estimates of clinical trial and IRB populations from
                      Government sources outside FDA.

                      The centers reported 2,856 BiMo inspections that required a clinical
                      trial site visit for the FY 2000–2005 period.44 (See Table 4 on the next
                      page.) However, the centers do not have data to identify the percentage
                      of trial sites that these inspections reached. Therefore, we used the
                      number of INDs and IDEs the centers received as well as estimates
                      from the clinical trial registry that NIH maintains to estimate the
                      percentage of trial sites that the BiMo inspections reached.45




                        44 We excluded IRB and sponsor inspections from this analysis because they generally do
                      not take place at a clinical trial site.
                        45 Section 113 of the 1997 FDAMA directs the Secretary of the Department of Health and
                      Human Services to act through NIH to establish and operate a databank of information on
                      clinical trials for drugs to treat serious or life-threatening diseases or conditions. Included
                      within this databank is information on studies to treat serious or life-threatening diseases
                      and conditions conducted under FDA IND regulations. Although the NIH registry does not
                      include all the clinical trials FDA oversees, it provides the best available estimate of the
                      average number of trial sites associated with clinical trials. The registry is available at
                      www.clinicaltrials.gov.



    OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   18
F   I N D I N G                S         




      T able 4: C enters' B iM o Inspections W ith Site Visits by Fiscal Y ear

      Fiscal Year                                         CDER                                     CD R H                            C BE R   Total

      2000                                                     296                                            91                       143     530

      2001                                                     186                                      113                             79     378

      2002                                                     194                                      153                            109     456

      2003                                                     226                                      167                            103     496

      2004                                                     219                                      189                             75     483

      2005                                                     221                                      183                            108     512

                      Total                                1,342                                        896                            617    2,855
     S ource: O IG Analysis of C D E R , C D R H , and C B ER data, 2006.

     W e included only clinical investigator, contract research organization, and sponsor m onitor inspections.



                              Although FDA cannot identify the total number of clinical trial sites
                              operating during the FY 2000–2005 period, the centers did track the
                              15,268 INDs and IDEs that they received during this period. However,
                              each IND or IDE may involve many trial sites, so the number of INDs
                              and IDEs cannot substitute for the total number of trial sites.
                              Therefore, to estimate the total number of trial sites, we calculated the
                              average number of clinical trial sites associated with a random sample
                              of clinical trials listed on the NIH clinical trials registry. We found that
                              clinical trials listed on that registry had an average of 23 sites per
                              trial.46 Based on these figures, we estimate that the 15,268 INDs and
                              IDEs the centers received included about 350,000 trial sites.

                              Using the estimate of 350,000 trial sites, we estimate that FDA’s
                              2,855 inspections reached just under 1 percent of the trial sites
                              associated with the INDs and IDEs the centers received.




                                46 A 95-percent confidence interval for our sample is +/- 8 trial sites, or between 15 and
                              31 sites per trial. Using this range, we calculate that FDA’s 2,855 inspections reached at
                              most just over 1 percent of trial sites associated with the 15,268 applications received by the
                              centers.



    OEI-01-06-00160           THE FOOD       AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS            19
F   I N D I N G 
S


                      Centers assign more surveillance inspections than directed inspections
                      For the FY 2000–2005 period, 75 percent of BiMo inspections were
                      surveillance inspections. Surveillance inspections generally focus on
                      verifying the clinical trial data that sponsors submitted with their new
                      product applications. Further, most surveillance inspections target
                      completed trials. Data verification inspections serve an important
                      purpose in enabling FDA to assess the quality of the data used to
                      support new product applications. However, because these inspections
                      take place after trials conclude, they cannot ensure that sponsors,
                      clinical investigators, and IRBs are taking the necessary actions to
                      protect human subjects during the trials.
                      Some of the directed inspections that the centers assigned during the
                      FY 2000–2005 period likely focused on ongoing trials. For example,
                      CBER annually targets a high-risk category of clinical trials for
                      inspection, which may include ongoing clinical trials.47 CDRH
                      implemented a program in the past year to increase the number of
                      inspections that focus on higher-risk clinical trials that may be ongoing.
                      However, the three centers do not track whether inspections target
                      ongoing trials, so we could not estimate the proportion of BiMo
                      inspections that reached ongoing trials. Several senior FDA officials
                      reported to us that they recognize the need to inspect more ongoing
                      clinical trials to protect human subjects.
                      Centers inspect few IRBs
                      Our analysis of center data shows that in the FY 2000–2005 period,
                      FDA conducted an average of 214 IRB inspections each year. The
                      number of IRB inspections has decreased annually since 2002. (See
                      Table 5 on the next page.) IRB inspections offer the centers
                      considerable oversight of human subject protections. Because IRBs
                      usually oversee a variety of clinical trials, the centers can review
                      numerous trials across the centers with each IRB inspection.

                      At most, we estimate that during the FY 2000–2005 period, the centers
                      inspected an average of about 6 percent of IRBs each year, or less than
                      40 percent of all IRBs in the 6-year period we evaluated. Because the
                      centers do not track the total population of IRBs, we used the IRB
                      database maintained by OHRP to estimate the population of IRBs.
                      OHRP oversees all research that the Federal Government sponsors.

                         47 Past examples include studies focusing on pediatric populations and gene therapy
                      studies.



    OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   20
F   I N D I N G               S


                             The OHRP database includes all IRBs that oversee research sponsored
                             by the Government, so it likely underestimates the population of IRBs
                             overseeing all clinical trial research. In February 2007, OHRP reported
                             3,579 IRBs in its IRB database.48



            T ab le 5: IR B In sp ectio n s as a P ercen tag e o f T o tal B iM o In sp ectio n s

                                               N u m b er o f IR B                             To tal B iM o P ercen tag e o f Insp ectio n s Th at
            F iscal Year
                                                   In sp ectio n s                            In sp ectio n s             Are IR B insp ectio n s

            2000                                                     198                                       795                           25%

            2001                                                     187                                       633                           30%

            2002                                                     278                                       812                           34%

            2003                                                     251                                       854                           29%

            2004                                                     207                                       779                           27%

            2005                                                     163                                       769                           21%

                               To tal                             1,284                                       4,642                          28%

            S ource: O IG A nalysis of C D E R , C D R H , and C B E R data, 2006.


                             IRB inspections assigned to ORA are allowed longer timeframes than
                             inspections of clinical investigators or sponsors. A center’s inspection
                             assignment includes a due date. In many cases, the centers allow ORA
                             up to 1 year to complete IRB inspections. By comparison, ORA
                             generally has 30 to 90 days to complete inspections of clinical
                             investigators.49
                             Center data show that despite these longer timeframes, ORA frequently
                             failed to meet the requested due dates for IRB inspections. ORA failed
                             to meet CDRH’s deadlines for 60 percent of IRB inspections (214 out of
                             359); 24 percent (85 of 359) were more than 60 days late. Similarly,
                             ORA failed to meet CBER’s deadline for 38 percent of that center’s IRB
                             inspections (24 of 63).50



                                48 OHRP oversees research that is conducted or supported by the U.S. Department of

                             Health and Human Services. See 45 CFR Part 46.
                                49 In some cases, IRB inspections are directed because of a past OAI or some other
                             concern. In these instances, the timeframes are shorter than the timeframes presented
                             here.
                                50 We could not determine the timeliness of CDER inspections because CDER does not
                             include the inspection due date in its database.



    OEI-01-06-00160          THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS                  21
Δ   R E C O M M E N D A T I O N S




                  FDA conducts BiMo inspections to ensure the quality and integrity of
                  clinical trial data and to determine whether sponsors, clinical
                  investigators, and IRBs are complying with regulations that protect
                  human subjects enrolled in clinical trials. Our evaluation identified a
                  lack of comprehensive reporting and tracking systems, a lack of
                  coordination among the centers and ORA, and regulations that do not
                  fully reflect current clinical trial practices.

                  No Federal requirements prescribe the number or type of BiMo
                  inspections FDA must conduct. However, FDA relies on BiMo
                  inspections as a principal mechanism for overseeing clinical trials after
                  it reviews the protocol. We recognize that resource limitations may be a
                  factor in determining the extent of FDA’s oversight of clinical trials
                  using BiMo inspections. However, to ensure its effectiveness in meeting
                  BiMo objectives, the inspection program needs comprehensive
                  management and reporting systems.

                  FDA has taken steps to improve the BiMo inspection program. For
                  example, in 2004 it created the BiMo Steering Committee to identify
                  and address weaknesses in the BiMo program. We identified additional
                  steps that FDA can take to improve oversight of clinical trials. These
                  changes will help FDA plan and conduct BiMo inspections more
                  effectively. These changes will also help FDA meet the BiMo objective
                  of “determining that human rights and the welfare of human research
                  subjects are adequately protected.”

                  FDA should:
                  Improve Information Systems and Processes
                  FDA’s BiMo inspections are a principal mechanism to ensure the
                  quality and integrity of clinical trial data and to determine that human
                  subjects are protected. However, the weaknesses we identified in the
                  BiMo information systems and management processes inhibit FDA’s
                  ability to effectively oversee and manage BiMo inspections across
                  centers. To improve the effectiveness of the BiMo program, FDA should
                  take the following actions:
                  Develop a clinical trial database that includes all clinical trials. FDA should
                  develop a comprehensive database to use as an internal management tool
                  to more effectively identify ongoing clinical trials for inspection. Although
                  NIH currently maintains a clinical trial registry, that registry was not
                  intended to be a comprehensive listing of clinical trials. It was created to

OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   22
R   E C O        M M E N D A T                     I O N                S


                      inform the public regarding potentially new life-saving treatments.
                      Because the registry contains clinical studies to treat serious or
                      life-threatening diseases and conditions conducted under FDA’s IND
                      regulations, it excludes most other clinical trials subject to FDA
                      regulation, such as medical device studies.

                      Create an Institutional Review Board registry. By identifying all IRBs
                      overseeing clinical trials, FDA could target IRBs more effectively for
                      inspection. FDA has acknowledged the importance of creating an IRB
                      registry and published a proposed rule in July 2004. Recently, the agency
                      set a timetable of March 2008 for issuance of a final rule.51
                      OHRP currently maintains an IRB registry for studies under its
                      auspices.52 FDA could build upon OHRP’s existing IRB registry to
                      create a larger and more inclusive database while minimizing the
                      administrative burden for IRBs.

                      Create a cross-center database that allows complete tracking of Bioresearch
                      Monitoring inspections. FDA cannot efficiently manage BiMo inspections
                      across centers without a database that includes timely and complete
                      information about all BiMo inspections. A single, consistent database
                      would require the centers to agree about which fields are essential and
                      how they should be defined. At a minimum, the database should include:
                      (1) specific information on the reason for an inspection, (2) whether the
                      inspection targets an ongoing or a completed clinical trial, (3) ORA’s
                      recommended classification, and (4) follow-up inspection information.

                      Establish a mechanism to provide feedback to Bioresearch Monitoring
                      investigators on their inspection reports and findings. Improved feedback
                      between the centers and BiMo investigators could lead to a common
                      understanding of the regulations and guidelines. This would minimize the
                      likelihood that an investigator would miss evidence to support an OAI
                      classification when one would be appropriate or spend time gathering
                      evidence to support an OAI classification that the center does not
                      corroborate.

                      Seek legal authority to provide oversight that reflects current clinical trial
                      practices. FDA should consider seeking additional authority that covers
                      all of the stakeholders in the management and conduct of clinical trials.


                        51 72 FR 22,520 (April 30, 2007).
                        52 OHRP oversees research that is conducted or supported by the U.S. Department of
                      Health and Human Services. See 45 CFR § 46.



    OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   23
R   E C O        M M E N D A T                     I O N                S


                      In particular, FDA should consider seeking authority to include the
                      colleagues and subordinates of a clinical investigator if they participate in
                      the conduct of a clinical trial.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      FDA concurred with four of our five recommendations. These
                      recommendations aimed to improve information systems and processes
                      related to the BiMo program. FDA did not address our recommendation
                      to establish a mechanism to provide feedback to BiMo investigators on
                      their inspection reports and findings.
                      Specifically, FDA concurred with our recommendations to develop a
                      clinical trial database that includes all clinical trials, to create an IRB
                      registry, to create a cross-center database that allows complete tracking
                      of BiMo inspections, and to seek legal authority to provide oversight
                      that reflects current clinical trial practices.

                      FDA pointed out that BiMo inspections make up only one part of its
                      efforts to ensure human subject protections, noting that it views its
                      protocol review before a clinical trial commences as the most important
                      step in protecting human subjects. We recognize the important role
                      that FDA’s protocol review plays in protecting human subjects and
                      made several changes to our report to reflect this point. We do note,
                      however, that this report addresses another important part of the
                      system for protecting human subjects: oversight of the trials once they
                      are actually underway.

                      The agency highlighted the efforts of its Human Subject
                      Protection/Bioresearch Monitoring Council in identifying key issues that
                      needed to be addressed, such as coordination, tracking mechanisms,
                      regulations, and guidance. FDA also emphasized the importance of
                      risk-based approaches to BiMo inspections rather than committing to
                      inspecting a specified percentage of clinical trials.

                      Where appropriate, we made changes to the report based on FDA’s
                      technical comments.

                      See Appendix B for complete agency comments.




    OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   24
Δ   A P P E N D I X                           A




                  METHODOLOGY
                  Scope
                  Our study focused on Bioresearch Monitoring (BiMo) inspections of
                  sponsors, clinical investigators, and Institutional Review Boards (IRBs)
                  in clinical trials from fiscal year (FY) 2000 to FY 2005. We reviewed all
                  of the inspections that BiMo investigators conducted for the Center for
                  Drug Evaluation and Research (CDER), the Center for Biologics
                  Evaluation and Research (CBER), and the Center for Devices and
                  Radiological Health (CDRH) that are listed in Food and Drug
                  Administration’s (FDA) inspections databases for this 6-year period.
                  We excluded BiMo inspections that focused on the bioequivalence and
                  laboratory compliance programs.53
                  Data Sources and Analysis
                  We used seven data sources for this study.

                  Food and Drug Administration’s Bioresearch Monitoring inspections data.
                  We analyzed FDA inspections data to evaluate how FDA tracks and
                  manages BiMo inspections. We also calculated the number and type of
                  inspections FDA conducts.

                  We analyzed data from six FDA databases for BiMo inspections. Each
                  center we evaluated and the Office of Regulatory Affairs (ORA)
                  maintain separate databases to track BiMo inspections. CDRH and
                  ORA each maintain a single database. CBER and CDER each maintain
                  two databases.

                  From each database, we analyzed the records for BiMo inspections of
                  clinical investigators, sponsors, and IRBs for CBER, CDER, and CDRH
                  during the FY 2000 to 2005 period.

                  We analyzed fields in the databases that indicate the type of inspections
                  that the centers conducted in the FY 2000 to 2005 period. (See Table 6.)
                  Each center tracks inspections differently, so we could not gather
                  information on every variable for all centers.




                    53 We excluded laboratory BiMo inspections because they were not clinical in nature. We
                  excluded bioequivalence BiMo inspections because they do not necessarily follow the same
                  investigational product processes described in the Background on p. 2.



OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   25
A   P   P E N D       I X        ~          A


                      Using the fields listed in Table 6, we evaluated the number and types of
                      inspections that FDA conducted from FY 2000 to 2005. We conducted
                      all database analysis in SAS®.
                      The following is a description of each of the databases:

                          Field Accomplishment and Compliance Tracking System (FACTS):
                           We received FACTS data from ORA in July 2006. The FACTS data
                           included 5,850 records. We removed 472 records that either
                           duplicated other records or targeted subjects outside our scope (for
                           example, manufacturers). We excluded 66 records that ORA coded as
                           “Cancelled” or “Returned” or that the Center for Veterinary Medicine
                           requested. Our analysis includes 5,312 FACTS records.
                      	   CBER data: We received data from CBER’s two databases in
                           July 2006. CBER dedicates one database to clinical investigator and
                           sponsor inspections. This database originally contained 714 records.
                           We removed records that did not fall within the scope of this study,
                           including five manufacturing inspections, four inspections classified
                           as “no inspection,” three inspections classified as “out of business,”
                           and eight inspections classified as “washout.” We also removed
                           11 inspections that did not include inspection start dates. Our
                           analysis includes 683 inspection records from this database.

                           CBER uses a second database to track IRB inspections. This
                           database included 73 records. We used all of these inspection records
                           in our analysis.
                      	   CDER data: We received data from one CDER database, the Center
                           Office Management Information System (COMIS), in October 2006.
                           CDER uses COMIS to track closed inspections of CDER drug
                           products trials that started before FY 2004. The COMIS data
                           originally included 4,237 inspection records. However, many of these
                           records were duplicates. After we removed the duplicate records,
                           COMIS included 1,196 inspection records.

                           We received data from a second CDER database, the Division of
                           Scientific Investigations database (DSI), in December 2006. CDER
                           uses the DSI database to track all inspections starting in FY 2004 or
                           later. The DSI database originally included 1,137 inspection records.
                           We removed records that did not fit within the scope of our study,
                           including inspections that started after FY 2005 ended. Our analysis
                           included 1,107 inspection records from the DSI database.



    OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   26
 A   P     P E N D        I X        ~          A


                          	   CDRH data: We received data from CDRH in November 2006.
                               CDRH’s database originally included 2,762 inspection records. We
                               excluded 1,168 inspection records, including records that ORA
                               classified as “no inspection made” and records that CDRH classified
                               as “washout,” “out of business,” or “cancelled.” Our analysis included
                               1,594 CDRH records.


Table 6: Variables Used To Analyze FDA BiM o Inspections Data


Variable                                                                      CBER                                     CDRH              CDER


  Inspection Subject                                                               Yes                                   Yes               Yes

  Reason for Inspection                                          Not available                                           Yes               Yes

  ORA Recom m ended Classification                               Not available                                           Yes               Yes

  Center Final Classification                                                      Yes                                   Yes               Yes

                                                                                                                               Database 1: Not
  Official Actions                                                                 Yes                                   Yes          available
                                                                                                                               Database 2: Yes

  Assignm ent Date                                                                 Yes                                   Yes               Yes

  Inspection Start Date                                                            Yes                         Not available               Yes

  Inspection End Date                                                              Yes                                   Yes      Not available

  Trial Status: Ongoing or Closed                                Not available                                 Not available      Not available

Source: OIG analysis of CDER, CDRH, and CBER data, 2006.


                          File review. We used FDA’s databases to identify all inspections that
                          either ORA or a center classified as OAI. We reviewed 248 CDER
                          inspection files, 99 CBER inspection files, and 321 CDRH inspection
                          files, for a total of 668 files.

                          We reviewed the files using a Microsoft Access® protocol. Our protocol
                          included inspection assignment, classification, official actions, and
                          correspondence between the center and the inspection subject. We
                          analyzed data from the file reviews using SAS®.
                          E-mail survey of Bioresearch Monitoring investigators. ORA headquarters
                          provided us with a list of the 231 ORA field investigators who had spent
                          100 or more hours conducting BiMo inspections in the previous 5 years.
                          We removed eight investigators from the original sample because they



     OEI-01-06-00160      THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS               27
A P P E N D        I X        ~          A


                   no longer conduct inspections or had not conducted an onsite inspection
                   in several years or we could not obtain contact information for them.

                   Our survey solicited respondents’ experiences with FDA guidance,
                   inspection and classification recommendations, inspection followup with
                   the assigning centers, and challenges in conducting BiMo inspections.
                   Before sending the survey, we solicited comments from ORA officials
                   and a BiMo investigator about the survey’s content and clarity. We
                   incorporated their feedback into the final survey.

                   We e-mailed each investigator an introductory letter explaining the
                   survey and the study in August 2006. Later in the month, we e-mailed
                   the survey. In September 2006, we e-mailed a second copy of the survey
                   to those who had not responded. At the end of September, we called the
                   investigators who had not yet replied. We received responses from
                   170 BiMo investigators for a 76-percent response rate.

                   Interviews with Food and Drug Administration officials. We conducted
                   telephone interviews with all 19 ORA directors of investigation (DIB) who
                   oversee BiMo investigators. Several DIBs invited supervisors in their
                   districts to participate in the interviews.

                   The interviews focused on the DIBs’ experiences with the supervisory
                   role, interactions with BiMo investigators, interactions with the
                   assigning centers, classification recommendations, and their challenges
                   in supervising BiMo inspections. Before the interviews, we solicited
                   comments from ORA officials and a DIB about the interview guide’s
                   content and clarity. We incorporated their feedback into the final
                   interview guide. We conducted the interviews in October and November
                   2006. At least two OIG staff participated in each interview.

                   We also interviewed senior FDA officials at FDA headquarters, ORA,
                   CBER, CDER, and CDRH.

                   Observation of Bioresearch Monitoring inspections. We observed three BiMo
                   inspections: two clinical investigator inspections and one IRB inspection.
                   FDA initiated the two clinical investigator inspections because of new
                   product applications. The IRB inspection was a directed inspection.

                   We based our observations on a protocol that focused on the process that
                   the BiMo investigator followed as well as the interactions between the
                   investigator(s) and the inspection subject(s). At least two OIG staff
                   participated in each inspection visit.




 OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   28
A P P E N D               I X          ~          A


                           Clinical trial registry site estimate. To compute an estimate of the average
                           number of clinical trial sites associated with a clinical trial, we used data
                           from the clinical trials listed on the National Institutes of Health’s clinical
                           trials registry as of February 2007. We selected a stratified random
                           sample of 150 trials. Because the registry is separated by trial phase, the
                           three strata used for the sample were Phase I, Phase II, and Phase III of
                           the clinical trial. (See Table 7 for our sample design.)

        Table 7: Clinical Trial Registry Site Estimate Sample Design

        Stratum                                                         Population Size                                        Sample

        Phase I                                                                            1,866                                  40

        Phase II                                                                           4,566                                  50

        Phase III                                                                          4,863                                  60
        Source: Office of Inspector General analysis of the National Institutes of Health's Clinical Trial Registry.



                           We first counted the total number of clinical trial sites for each of the
                           three clinical trial phases. This served as our population size. Using
                           the OIG Office of Audit Service’s RAT-STATS software, we chose
                           random numbers to select the clinical trial. Because each trial in the
                           registry was assigned a number, we were able to use the random
                           numbers to identify the sampled trial. After sampling the trials, we
                           counted the number of sites associated with each sampled trial.

                           We excluded 43 of the 150 clinical trials sampled. There were three
                           situations in which the sampled trials were unusable and therefore had
                           to be excluded. First, some of the trials appeared in the population
                           multiple times because they were named Phase I/Phase II or
                           Phase II/Phase III. If a trial was listed as Phase I/Phase II, it was
                           counted as Phase II. Similarly, if a trial was listed as Phase II/Phase
                           III, it was counted as a Phase III. Eighteen occurrences of a Phase
                           I/Phase II trial in the Phase I population were excluded, as were seven
                           occurrences of a Phase II/Phase III trial in the Phase II population. In
                           addition, no sites were listed for 16 trials. Finally, terminated trials
                           occurred twice in the sample. We used the remaining sample of 107
                           trials to compute the average number of sites per trial. The sample was
                           weighted using standard statistical formulas for a stratified sample.
                           Based on these formulas, the estimated average number of sites for a
                           clinical trial is 23. This estimate can vary by +/-8 trials at the
                           95-percent confidence level.


 OEI-01-06-00160           THE FOOD    AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS            29
A   P   P E N D    I X ~           A

                  Review of Food and Drug Administration policies, procedures, and guidance
                  documents. We obtained and reviewed all relevant policies, procedures,
                  and guidance documents issued by FDA for conducting BiMo inspections.
                  We used these documents to better understand the process for conducting
                  inspections of clinical trials.




OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   30
A   P   P E N D       I X        ~          A
Δ       A P P E N D I X                           B


         Agency Comments




    OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   31
A   P   P E N D       I X        ~          B




    OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   32
A   P   P E N D       I X        ~          B




    OEI-01-06-00160   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   33
N D
A P P
    I XE N ~ D      I BX        ~          A
                                           B
Δ     A C
        P P
          K EN NO DW I L X E ~ D B G M E N T S



                     This report was prepared under the direction of Joyce M. Greenleaf,
                     Regional Inspector General for Evaluation and Inspections in the
                     Boston regional office, and Russell W. Hereford, Deputy Regional
                     Inspector General.

                     Danielle Fletcher served as the team leader for this study. Other
                     principal Office of Evaluation and Inspections staff from the Boston
                     regional office who contributed include Rosemary Borck, Chris Galvin,
                     and Robyn Sterling, and central office staff include Ayana Everett.




  OEI-01-06-00160    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S O V E R S I G H T   OF   CLINICAL TRIALS   34
